      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General


                                                                        Washington, D.C. 20201




May 23, 2011

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services

               /Diann M. Saltman/ for
FROM:          George M. Reeb
               Acting Deputy Inspector General for Audit Services


SUBJECT:       Review of Additional Claims for Sterilization Procedures in the
               Colorado Medicaid Family Planning Program (A-07-11-01096)


Attached, for your information, is an advance copy of our final report on additional claims for
sterilization procedures in the Colorado Medicaid family planning program. We will issue this
report to the Colorado Department of Health Care Policy and Financing within 5 business days.

If you have any questions or comments about this report, please do not hesitate to contact me at
(410) 786-7104 or through email at George.Reeb@oig.hhs.gov, or your staff may contact
Patrick J. Cogley, Regional Inspector General for Audit Services, Region VII, at (816) 426-3591
or through email at Patrick.Cogley@oig.hhs.gov. Please refer to report number A-07-11-01096.


Attachment
                                                                          Office of Inspector General
   DEPARTMENT OF HEALTH & HUMAN SERVICES                                  Office of Audit Services



                                                                          Region VII
                                                                          601 East 12th Street
                                                                          Room 0429
                                                                          Kansas City, Missouri 64106
May 25, 2011

Report Number: A-07-11-01096

Ms. Susan E. Birch
Executive Director
Colorado Department of Health Care Policy and Financing
1570 Grant Street
Denver, CO 80203

Dear Ms. Birch:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Additional Claims for Sterilization Procedures in
the Colorado Medicaid Family Planning Program. We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Chris Bresette, Audit Manager, at (816) 426-3591 or through email at
Chris.Bresette@oig.hhs.gov. Please refer to report number A-07-11-01096 in all
correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Susan E. Birch


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




REVIEW OF ADDITIONAL CLAIMS
FOR STERILIZATION PROCEDURES
  IN THE COLORADO MEDICAID
  FAMILY PLANNING PROGRAM




                      Daniel R. Levinson
                       Inspector General

                          May 2011
                        A-07-11-01096
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Colorado, the Department of Health Care
Policy and Financing (the State agency) is responsible for administering the Medicaid program.

Consistent with this responsibility, the State agency submits to CMS, on a quarterly basis, its
standard Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program (CMS-64 report), to report Medicaid expenditures for Federal
reimbursement.

The amount that the Federal Government reimburses to State Medicaid agencies, known as
Federal financial participation (FFP) or Federal share, is determined by the Federal medical
assistance percentage (FMAP), which varies based on a State’s relative per capita income. The
State agency’s FMAP rates ranged from 50.00 percent to 61.59 percent for claims paid from
October 1, 2005, through September 30, 2009.

Federal requirements also allow various specified services to be reimbursed at higher FFP rates.
Section 1903(a)(5) of the Act and 42 CFR §§ 433.10(c)(1) and 433.15(b)(2) authorize
reimbursement at an enhanced 90-percent rate (90-percent rate) for family planning services.
Section 4270 of the CMS State Medicaid Manual describes family planning services as those
that prevent or delay pregnancy or otherwise control family size and may also include
sterilization procedures.

During Federal fiscal years 2006 through 2009, the State agency incurred costs of $9,697,454 for
sterilization procedures, which served as its basis for calculating and claiming Federal
reimbursement.

OBJECTIVE

Our objective was to determine whether the State agency correctly claimed costs for Medicaid
family planning sterilization procedures on the CMS-64 reports for the period October 1, 2005,
through September 30, 2009.

SUMMARY OF FINDINGS

The State agency did not always correctly claim costs for Medicaid family planning sterilization
procedures on the CMS-64 reports. For the quarters ended March 2007 through September 2009,
the State agency claimed additional costs for the same sterilization procedures, which resulted in
$1,975,800 in unallowable Federal reimbursement.

                                                 i
Although the State agency had an informal adjustment process to claim these costs correctly, this
process was not effective beginning with the quarter ended March 2007.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $1,975,800 to the Federal Government,

   •   review costs for family planning sterilization procedures for quarterly reporting periods
       subsequent to our audit period and refund any overpayments to the Federal Government,
       and

   •   establish written procedures to ensure that future costs for family planning sterilization
       procedures are claimed correctly on the CMS-64 reports.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations
and described corrective actions that it planned to implement. The State agency’s comments are
included in their entirety as Appendix B.




                                                 ii
                                                 TABLE OF CONTENTS

                                                                                                                             Page

INTRODUCTION ................................................................................................................. 1

      BACKGROUND ............................................................................................................. 1
            Medicaid Program ............................................................................................ 1
            Colorado Medicaid Program ............................................................................ 1
            Medicaid Coverage of Family Planning Services ............................................ 1
            Family Planning Sterilization Claims Processing Methodology ..................... 2

      OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................... 2
             Objective .......................................................................................................... 2
             Scope................................................................................................................ 2
             Methodology .................................................................................................... 3

FINDING AND RECOMMENDATIONS .......................................................................... 3

      FEDERAL REQUIREMENTS ........................................................................................ 3

      INCORRECTLY CLAIMED COSTS FOR MEDICAID FAMILY PLANNING
        STERILIZATION PROCEDURES ............................................................................ 4

      INFORMAL ADJUSTMENT PROCESS NOT EFFECTIVE ........................................ 4

      UNALLOWABLE FAMILY PLANNING COSTS ........................................................ 4

      RECOMMENDATIONS ................................................................................................. 5

      STATE AGENCY COMMENTS .................................................................................... 5

APPENDIXES

     A: CALCULATION OF QUESTIONED COSTS BY QUARTER

     B: STATE AGENCY COMMENTS




                                                                   iii
                                      INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

The standard Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program (CMS-64 report), reports actual Medicaid expenditures for each quarter and
is used by CMS to reimburse States for the Federal share of Medicaid expenditures. The
amounts reported on the CMS-64 report and its attachments must be actual expenditures with
supporting documentation.

Colorado Medicaid Program

In Colorado, the Department of Health Care Policy and Financing (the State agency) is
responsible for administering the Medicaid program. The State agency contracts with Affiliated
Computer Services, Inc., to maintain its Medicaid Management Information System (MMIS), a
computerized payment and information reporting system that processes and pays Medicaid
claims.

The amount that the Federal Government reimburses to State Medicaid agencies, known as
Federal financial participation (FFP) or Federal share, is determined by the Federal medical
assistance percentage (FMAP), which varies based on a State’s relative per capita income. The
State agency’s FMAP rates ranged from 50.00 percent to 61.59 percent for claims paid from
October 1, 2005, through September 30, 2009.

Medicaid Coverage of Family Planning Services

Section 1905(a)(4)(C) of the Act requires States to furnish family planning services and supplies
to individuals of childbearing age (including minors who can be considered to be sexually active)
who are eligible under the State plan and who desire such services and supplies. Section
1903(a)(5) of the Act and 42 CFR §§ 433.10(c)(1) and 433.15(b)(2) authorize Federal
reimbursement at an enhanced 90-percent rate (90-percent rate) for family planning services.

Section 4270 of the CMS State Medicaid Manual (the manual) describes family planning
services as those that prevent or delay pregnancy or otherwise control family size. Family
planning services include, but are not limited to, the following items and services: counseling
services and patient education, examination and treatment by medical professionals pursuant to


                                               1
States’ requirements, devices to prevent conception, sterilization procedures, and infertility
services.

Family Planning Sterilization Claims Processing Methodology

The State agency used computer programs to identify family planning claims according to
diagnosis and procedure codes. The programs accessed the MMIS, which contains records of
paid claims, and produced reports that listed claims, or portions of claims, with family planning
services. The State agency used these reports for claiming family planning costs for Federal
reimbursement on the CMS-64 reports.

The CMS-64 report has one line designated for reporting incurred costs for sterilization
procedures. Because the State agency initially classified these costs to other CMS-64 report
lines, the State agency used an informal adjustment process through which it moved the
sterilization costs to the designated line prior to submission of the CMS-64 reports. This process
involved a negative adjustment to the other CMS-64 report lines that had initially been used and
a positive adjustment to the designated line. Both of these adjustments should have been made at
the 90-percent rate.

During Federal fiscal years 2006 through 2009, the State agency incurred costs of $9,697,454 for
sterilization procedures, which served as its basis for calculating and claiming Federal
reimbursement. During this same period, the State agency received Federal reimbursement
totaling $34,761,214 for all family planning services. We are separately reviewing this Federal
reimbursement.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency correctly claimed costs for Medicaid
family planning sterilization procedures on the CMS-64 reports for the period October 1, 2005,
through September 30, 2009.

Scope

We reviewed $9,697,454 that the State agency incurred for sterilization procedures for the period
October 1, 2005, through September 30, 2009. We reviewed the FFP rates used to calculate the
Federal reimbursement that the State agency received from its claimed costs, but we did not
review the medical necessity of the claims or analyze the claims to determine whether they met
the requirements to be claimed as family planning services. Further, we did not review the
overall internal control structure of the State agency or the Medicaid program. Rather, we
reviewed only the internal controls that pertained directly to our objective.

We performed fieldwork at the State agency’s offices in Denver, Colorado, from March through
November 2010.



                                                 2
Methodology

To accomplish our objective, we:

   •   reviewed Federal laws, regulations, and guidance and the State plan;

   •   held discussions with CMS officials to gain an understanding of CMS requirements and
       guidance furnished to State agency officials concerning Medicaid family planning claims;

   •   held discussions with State agency officials to gain an understanding of how the State
       agency claimed Medicaid reimbursement for family planning services, including
       sterilization procedures;

   •   reconciled current-period and prior-period family planning claims reported on the
       CMS-64 reports to the State agency’s supporting documentation; and

   •   provided the results of our review to State agency officials on November 16, 2010.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

The State agency did not always correctly claim costs for Medicaid family planning sterilization
procedures on the CMS-64 reports. For the quarters ended March 2007 through September 2009,
the State agency claimed additional costs for the same sterilization procedures, which resulted in
$1,975,800 in unallowable Federal reimbursement.

Although the State agency had an informal adjustment process to claim these costs correctly, this
process was not effective beginning with the quarter ended March 2007.

FEDERAL REQUIREMENTS

Federal regulations (42 CFR 433.32(a)) require that the State agency “[m]aintain an accounting
system and supporting fiscal records to assure that claims for Federal funds [reported on the
CMS-64 report] are in accord with applicable Federal requirements ….”

Pursuant to section 4270 of the manual, only items and procedures clearly furnished or provided for
family planning purposes may be claimed at a 90-percent rate. Additionally, section 4270(B)(1) of
the manual states that “FFP at the 90 percent rate is available for the cost of a Medicaid
sterilization ….”



                                                3
INCORRECTLY CLAIMED COSTS FOR MEDICAID FAMILY PLANNING
STERILIZATION PROCEDURES

The State agency did not always correctly claim costs for Medicaid family planning sterilization
procedures on the CMS-64 reports. For each of the quarters ended March 2007 through
September 2009, the State agency made two claims for the same sterilization procedures for
Federal reimbursement. The additional claim was not allowable for Federal reimbursement.

The State agency made one claim correctly at the 90-percent rate on the sterilization line.

The State agency inadvertently made an additional claim for the same sterilization procedures.
The additional claims occurred when the State agency moved sterilization costs to the designated
line and negatively adjusted the initial lines at the FMAP rates (which ranged from 50.00 percent
to 61.59 percent) instead of at the 90-percent rate. This error resulted in additional claims (on
the initial lines) that represented the difference between the Federal reimbursement at the
90-percent rate and at the lower FMAP rates.

Because the State agency claimed the costs on the sterilization line, the additional claim (on the
initial lines) was unallowable for Federal reimbursement.

We verified that during the quarters ended December 2005 through December 2006, the State
agency claimed costs for sterilization procedures only once.

INFORMAL ADJUSTMENT PROCESS NOT EFFECTIVE

The additional claims occurred because the State agency utilized an informal adjustment process
that was not effective.

Although the State agency had an informal adjustment process that would have prevented the
incorrect claims by ensuring that the negative adjustments were correctly made at the
90-percent rate, this process was not effective beginning with the quarter ended March 2007.

UNALLOWABLE FAMILY PLANNING COSTS

Because the State agency’s informal adjustment process was not effective, the State agency
received $1,975,800 in unallowable Federal reimbursement, which represented the difference
between Federal reimbursement at the 90-percent rate ($4,985,826) and at the lower FMAP rates
($3,010,026).

The details of the questioned costs for each quarter are listed in Appendix A.




                                                 4
RECOMMENDATIONS

We recommend that the State agency:

   •   refund $1,975,800 to the Federal Government,

   •   review costs for family planning sterilization procedures for quarterly reporting periods
       subsequent to our audit period and refund any overpayments to the Federal Government,
       and

   •   establish written procedures to ensure that future costs for family planning sterilization
       procedures are claimed correctly on the CMS-64 reports.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations
and described corrective actions that it planned to implement. The State agency’s comments are
included in their entirety as Appendix B.




                                                 5
APPENDIXES
          APPENDIX A: CALCULATION OF QUESTIONED COSTS BY QUARTER

The State agency received $1,975,800 in unallowable Federal reimbursement, which represented
the difference between Federal reimbursement at the 90-percent rate ($4,985,826) and at the
lower Federal medical assistance percentage rates ($3,010,026). The following table presents
details of the questioned costs by quarter for Medicaid family planning sterilization procedures.

                                       Amounts at   Amounts at
                        Quarter        90-Percent    FMAP 1     Net Difference
                        Ended             Rate        Rates    Questioned Costs

                      03/31/2007        $146,639     ($81,466)      $65,173
                      06/30/2007         463,695     (257,608)      206,087
                      09/30/2007         378,375     (210,208)      168,167
                      12/31/2007         488,431     (271,351)      217,080
                      03/31/2008         472,398     (262,443)      209,955
                      06/30/2008         296,031     (164,462)      131,569
                      09/30/2008         637,200     (354,000)      283,200
                      12/31/2008         411,882     (269,005)      142,877
                      03/31/2009         571,514     (373,262)      198,252
                      06/30/2009         798,350     (546,337)      252,013
                      09/30/2009         321,311     (219,884)      101,427

                          Total        $4,985,826   ($3,010,026)   $1,975,800




1
    Federal medical assistance percentage.
                                                                                                                                                           Page 1 of 3



                      APPENDIX B: STATE AGENCY COMMENTS 





                         COLORADO DEPARTMENT OF HEALTH CARE POLICY & FINANCING

                         1570 Grant street, Denver,       co 80203-1818 • (303) 866-2993.            (303) 866-4411 Fax. (303) 866-3883 TTY
                         John w. _looper, _                 • 5u5In E.Illrd!MBA, BSN, AN, E><ecuIMO ~




April 19, 2011




PatrickJ. Cogley, Regional Inspector General 

Office of the Inspector General 

Office of Audit Services, Region V11 

601 East 121h Street, Room 0429 

Kansas City, MO 64106 


Dear Mr. Cogley:

Here is the Department ofHealth Cate Policy and Financing's submission of responses to the draft report entitled
Review ofAdditional Claims for Sterilization Procedures in the Colorado Medicaid Family Planning Program (A­
07-11-01096).


If you have any questions or comments, please feel free to contact me at 303-866-2590 or 

laurie.simon@state.co.us. 


Sincerely,

~
Laurie A. Simon 

Audit Coordinator 




lis

cc:    Greg Tanner, Controller

Enclosure




       "Tho ...... 01 the Deportment 01 H..m. eo... r..ucy ~ flNncln& II 10 imprvw• ..,_ 10 COII-ofIedift, .....1IIy ....1111 co... _   Iv< CaIonocIono"
                                                                    coIor......../llCpf
                                                                                          Page 2 of 3




               Department ofHealtb Care Policy and Finandng's 

                              InitiaJ Response to the 

                    Department or Health &. Human Services 

                           Office oflupeetor General 

  Review ofAdditional Claims for SterilivUion Procedures in the Colortu/o Medicaid 

                            Family Planning Program 

                         Control Number A-07-11-01096
                                    Marcb2011

CMS Recommendation ##1:

We recommend that tbe State Agency:

   • 	 Refund $1,975,800 to the Federal Government

The Department ofHealth Care Policy and Financing's Response to Recommendation
#1:

Concur.

The Department agrees to refond the federal financial participation in the amount of
$1,975,800 for unallowable family planning costs and will review costs for family
planning sterilization procedures for all quarterly reporting periods subsequent to the
October 1, 2005 through September 30, 2009 audit period reviewedfor this report. The
Department will implement this recommendation by August 31, 2011.

CMS Recommendation ##2:

We recommend that tbe State Agency:

   • 	 Review costs for family planning sterilization procedures for quarterly
       reportiog periods subsequent to our audit period and refund any
       overpayments to the Federal Government.

The Department ofHealth Care Policy and FinanCing's Response to Recommendation
#2:

Concur. 


If anyoverpayments are identified, the Department will work with the Centers for 

Medicare and Medicaid Services to ensure the overpayments are refunded to lhe Federal 

Government. The Department will implement this recommendation by August 31, 2011. 


CMS Recommendation ##3: 


We recommend tbat tbe State Agency: 




                                        lof2
                                                                                         Page 3 of 3




       Establish written procedures to eDsure that future costs for familY plaDning
       sterilization procedures are claimed correctly on the CMS-64 reports

The Department 01 Heahlt Care Policy and Financing's Response to Recol1l1MndatWn
#3:

Concur.

The Department will develop written procedures and will ensure they address the manual
reclassification 01family planning sterilization procedures so that future costs are
claimed correctly on the CMS-64 reports. Training on the poliCies and procedures
related to the methodologylor calculating and reporting Family Planning expenditures
will be provided to all staffwho work with the Family Planning program and their
supervisors. The Department will implement this recommendation by August 31, 2011.




                                       lof2
